                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A11100068                                                                       Page 1 of 1




                 Our office received an allegation of plagiarism in an NSF proposal. 1 We contacted the
         PI2 and Co-Pis 3 and asked that they respond to the allegation. The PI responded and provided
         documentary evidence indicating he had either co-authored the text we had annotated as copied
         or had used the annotated text with the approval ofthe proposal's international collaborator, a co-
         aut~or ofthe sources. 4 The allegation of plagiarism is therefore not substantiated. Accordingly,
         this case is closed and no further action will be taken.




NSF OIG Form 2 (11/02)
